 September 25, 2006




Financial Management
Budget Execution Reporting at
Defense Finance and Accounting
Service Indianapolis
(D-2006-114)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Corporate Planning and
  Analysis at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and
  requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AFS                   Audited Financial Statements
AGF                   Army General Fund
AWCF                  Army Working Capital Fund
DDRS                  Defense Departmental Reporting System
DFAS                  Defense Finance and Accounting Service
FACTS II              Federal Agencies’ Centralized Trial-Balance System II
HQARS                 Headquarters Accounting and Reporting System
MAF                   Master Account File
OMB                   Office of Management and Budget
SF                    Standard Form
TAFS                  Treasury Appropriation Fund Symbols
                Department of Defense Office of Inspector General
Report No. D-2006-114                                                September 25, 2006
   (Project No. D2006-D000FI-0028.000)

             Budget Execution Reporting at Defense Finance and
                      Accounting Service Indianapolis

                                  Executive Summary

Who Should Read This Report and Why? DoD and Army personnel responsible for
preparing Army budget execution reports and the Statement of Budgetary Resources
should read this report. This is the first in a series of reports related to Army budget
execution operations. This report identifies an internal control weakness regarding the
reporting of Army budget execution data.

Background. The Defense Finance and Accounting Service (DFAS) Indianapolis
provides finance and accounting support to the Army and Defense agencies. This
support includes preparing the Army financial statements, including the Army General
Fund and Army Working Capital Fund Statements of Budgetary Resources and related
footnotes. The Army financial statements are consolidated into the annual DoD
Performance and Accountability Report, which is submitted to the President, Congress,
and the Office of Management and Budget. The Office of Management and Budget
prepares the Government-wide report on Budget Execution (Standard Form [SF] 133),
which contains budgetary resources, obligations, and disbursements. DFAS Indianapolis
also prepares budget execution reports using financial data submitted by DoD field
accounting activities and other sources. Budget execution reports prepared by DFAS
Indianapolis include the monthly Army SF 133, which is provided to Congress, the
Congressional Budget Office, Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, Army Budget Office, and DFAS Arlington.
DFAS Indianapolis also submits quarterly budget execution data to the Department of the
Treasury. The Office of Management and Budget uses the data submitted to the
Department of the Treasury to prepare the Government-wide SF 133.

Results. The Army budget execution data reported to the Department of the Treasury for
the Office of Management and Budget SF 133 did not agree with the data reported on the
Army financial statements. The differences between the amounts reported on the Office
of Management and Budget SF 133 and the Army Statements of Budgetary Resources
totaled $149.6 billion for fourth quarter FY 2005 and $12.5 billion for first quarter
FY 2006. As a result, DFAS Indianapolis used one set of budget execution data to
manage Army funds, but provided the Department of the Treasury a different set of
budget execution data for the Office of Management and Budget’s use. DFAS
Indianapolis reported inaccurate, misleading budget execution data on the Army SF 133,
Army Statements of Budgetary Resources and related footnotes, and to the Department of
the Treasury for the Office of Management and Budget SF 133. DFAS Indianapolis also
risked perpetuating material differences in a newly-fielded accounting system.
The Director of DFAS Indianapolis should develop and execute a standard operating
procedure that requires:

       •   recording and reporting obligations consistent with apportionment category
           codes;

       •   adjusting the amounts submitted through Federal Agencies’ Centralized Trial-
           Balance System II and on the Army SF 133 to reflect adjustments made as
           part of the compilation of the Army Statement of Budgetary Resources; and

       •   performing a quarterly reconciliation among the amounts reported on the
           Army SF 133, submitted through Federal Agencies’ Centralized Trial-Balance
           System II for the Army, reported on the Office of Management and Budget
           SF 133, and reported on the Army Statements of Budgetary Resources and
           related footnotes.

In addition, the Assistant Secretary of the Army (Financial Management and
Comptroller) should disclose the existence of material unreconciled differences in budget
execution data in Army financial statement footnotes.

Management Comments and Audit Response. The Director of DFAS Indianapolis
responded to the draft report and stated that the findings and recommendations for Army
have an impact on the entire DoD network. The Director stated that the concurrence and
implementation of these recommendations will be dependent on the analysis and
discussion performed by all DoD entities. The Director also stated that once that
decision has been finalized, their complete position will be provided to the DoD Office of
Inspector General on December 31, 2006. The comments provided by the Director did
not indicate concurrence or nonconcurrence with the finding and recommendations. As a
result, the comments were not responsive. However, we will accept additional comments
from the Director no later than December 31, 2006.

The Assistant Secretary of the Army (Financial Management and Comptroller) concurred
with the recommendation directed to the Army and stated that the Financial Reporting
Directorate will coordinate with DFAS Indianapolis to disclose the existence of material
unreconciled differences in budget execution data as part of Army’s footnote to the Army
financial statements. In addition, the Army will include actions to address these issues in
the “Internal Controls over Financial Reporting” (Office of Management and Budget
Circular A-123, Appendix A) documentation and the “Chief Financial Officer’s Strategic
Plan.” These actions are targeted to be completed by first quarter 2007.

See the Finding section for a discussion of management comments and the Management
Comments section for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                  i

Background                                        1

Objectives                                        3

Managers’ Internal Control Program                3

Finding
      Budget Execution Data Internal Controls      4

Appendixes
     A. Scope and Methodology                     12
     B. Fourth Quarter FY 2005 Army Differences   13
     C. Report Distribution                       20

Management Comments
     Department of the Army                       23
     Defense Finance and Accounting Service       24
Background
    This is the first in a series of reports related to Army budget execution operations.
    This report discusses the transmission of Army budget execution data by the
    Defense Finance and Accounting Service (DFAS) Indianapolis to various
    accounting systems and the Department of the Treasury.

    Defense Finance and Accounting Service Indianapolis. DFAS Indianapolis
    provides finance and accounting support to the Army and Defense agencies.
    DFAS Indianapolis’s Departmental Budget Execution Operations is primarily
    responsible for compiling accurate and timely budget execution reports in
    compliance with DoD financial management regulations. To compile these
    reports, Departmental Budget Execution Operations uses financial data submitted
    by DoD field accounting activities and other sources.

    Office of Management and Budget Report on Budget Execution and
    Budgetary Resources. Office of Management and Budget (OMB) uses the
    financial data submitted through the Department of the Treasury’s Federal
    Agencies’ Centralized Trial-Balance System II (FACTS II) to compile the
    quarterly Government-wide Report on Budget Execution and Budgetary
    Resources (Standard Form [SF] 133). The SF 133 displays budgetary resources,
    status of those resources, obligations, and outlays. OMB prepares an SF 133 for
    each appropriation established by Congress to assist Federal agencies, OMB, and
    the Department of the Treasury in budgetary reporting and oversight. OMB puts
    the OMB SF 133 on the Internet for Federal agencies to review and to facilitate
    communication among accounting, budget, and audit staff.
    Army Report on Budget Execution and Budgetary Resources. One report
    compiled by Budget Execution Operations is the monthly Army Report on Budget
    Execution and Budgetary Resources (SF 133). The Army SF 133 allows for the
    monitoring of the status of funds apportioned on the Apportionment and
    Reapportionment Schedule (SF 132), which is used by OMB to distribute funds.
    In addition, the sum of the Army SF 133s makes up the Army’s Statement of
    Budgetary Resources. DFAS Indianapolis submits the Army SF 133 to Congress,
    the Congressional Budget Office, Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer, Army Budget Office, and DFAS
    Arlington. Departmental Budget Execution Operations also submits quarterly
    Army SF 133 budget execution data through FACTS II. FACTS II is also used to
    submit financial data for the Financial Management Service Year-End Closing
    Statement and much of the information included in the President’s Budget.

    Statement of Budgetary Resources. DFAS Indianapolis prepares the Army
    financial statements. The Army financial statements include a separate Statement
    of Budgetary Resources for the Army General Fund (AGF) and for the Army
    Working Capital Fund (AWCF). The Statement of Budgetary Resources and
    related disclosures provide information on how budgetary resources are made
    available, as well as their status at the end of the period. The Army financial
    statements are consolidated into the annual DoD Performance and Accountability




                                          1
Report, which is submitted to the President, Congress, and OMB. Table 1 shows
the amount of total budgetary resources, obligations, and disbursements reported
on the FY 2005 AGF and AWCF Statements of Budgetary Resources.

 Table 1. Selected Lines from Fourth Quarter FY 2005 Statement of Budgetary
                         Resources for AGF and AWCF
                               (Amounts in Billions)
                Line                     Army General      Army Working
                                              Fund          Capital Fund
 Total Budgetary Resources                   $215.1             $18.0
 Obligations Incurred – Subtotal               199.6             16.8
 Disbursements                                 173.5             14.0

Accounting Systems. To receive, validate, and consolidate budget execution
data from field accounting offices, DFAS Indianapolis uses the Headquarters
Accounting and Reporting System (HQARS). HQARS is a legacy reporting
system that does not meet Federal system requirements. DFAS Indianapolis
generates the Army SF 133 from a consolidation of budget execution data
submitted by the field accounting offices and other sources. DFAS Indianapolis
is replacing HQARS with the Defense Departmental Reporting System (DDRS)
Budgetary Module (Budgetary), a general ledger based reporting system. DDRS
Budgetary is designed to standardize the DoD departmental reporting process and
produce monthly departmental reports based on the United States Standard
General Ledger and standard attributes. HQARS uses Report Data Types, which
are non-standard transaction codes. DDRS Audited Financial Statements (AFS) is
used to prepare the DoD financial statements. Currently, HQARS and DDRS
Budgetary are running simultaneously as DDRS Budgetary is in the testing phase
of development.

Budget Execution Reporting Requirements. OMB has established specific
criteria for the reporting of budget execution data. OMB Circular No. A-136,
“Financial Reporting Requirements,” August 23, 2005, (Circular A-136),
incorporated and updated OMB Bulletin 01-09, “Form and Content of Agency
Financial Statements,” which required that information on the Statement of
Budgetary Resources be consistent with budget execution information reported on
the SF 133. Circular A-136 became effective for year-end FY 2005 financial
statement preparation and requires that information reported on the Statement of
Budgetary Resources be consistent with and reconciled to the budget execution
information reported on the SF 133. Circular A-136 specifically states that
agencies should ensure that the budgetary information used to prepare the
Statement of Budgetary Resources be consistent with the budgetary information
reported to the FACTS II during the fourth quarter of the fiscal year.

Circular A-136 also requires a financial statement footnote disclosure of the
amounts of direct and reimbursable obligations incurred against amounts
apportioned under Categories A, B, and C. This disclosure shall agree with the
aggregate of the related information as reported on the agency’s year-end SF 133
and direct and reimbursable obligations incurred on the Statement of Budgetary
Resources. OMB uses Category A apportionments to distribute budgetary
resources by fiscal quarters and uses Category B apportionments to distribute
budgetary resources by activities, projects, objects, or a combination of the three.


                                      2
           OMB uses Category C apportionments for multi-year and no-year Treasury
           Appropriation Fund Symbols (TAFS) to apportion funds into future fiscal years.


Objectives
           The overall audit objective was to determine whether internal controls over
           budget execution operations at Defense Finance and Accounting Service
           Indianapolis are adequate to ensure accurate managerial and budget execution
           reports. We also evaluated the effectiveness of management’s assessment of
           internal controls as it related to the audit objective. See Appendix A for a
           discussion of the scope and methodology related to the objectives.


Managers’ Internal Control Program
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls. 1

           Scope of the Review of the Management Control Program. We evaluated the
           DFAS Indianapolis internal controls over budget execution operations.
           Specifically, our review focused on the Budget Execution Operations of the
           Directorate for Departmental Accounting. We also reviewed the adequacy of
           management’s self-evaluation of those controls.

           Adequacy of Management Controls. We identified a material management
           control weakness for DFAS Indianapolis, as defined by DoD Instruction 5010.40.
           DFAS Indianapolis management controls were not effective to correct differences
           among budget execution data reported on the Statement of Budgetary Resources,
           Army SF 133, and submitted through FACTS II. Recommendations 1 and 2, if
           implemented, will correct the identified weakness. A copy of the report will be
           provided to the senior official responsible for management controls in DFAS
           Indianapolis.

           Adequacy of Management’s Self-Evaluation. DFAS Indianapolis officials
           identified the preparation of Army budget execution reports as part of an
           assessable unit. However, the DFAS Indianapolis self-evaluation was not
           effective in identifying the management control weakness addressed by the audit
           because DFAS officials did not validate that reconciliations were performed.




1
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on January
    4, 2006.



                                                     3
            Budget Execution Data Internal Controls
            Army budget execution data reported to the Department of the Treasury
            did not agree with the data reported on the Army financial statements.
            The differences between the amounts reported on the OMB SF 133 and
            the Army Statements of Budgetary Resources totaled $149.6 billion for
            fourth quarter FY 2005 and $12.5 billion for first quarter FY 2006. This
            occurred because DFAS Indianapolis did not perform an effective
            reconciliation among FACTS II data, Army Statements of Budgetary
            Resources, and the Army SF 133. As a result, DFAS Indianapolis used
            one set of budget execution data to manage Army funds, but provided the
            Department of the Treasury a different set of budget execution data for
            OMB’s use. Also, DFAS Indianapolis reported inaccurate and misleading
            budget execution data on the Army SF 133, Army Statements of
            Budgetary Resources and related footnote, and to the Department of the
            Treasury for the OMB SF 133. In addition, DFAS Indianapolis will
            perpetuate the material differences in the newly-fielded accounting system
            if the differences are not corrected.


Budget Execution Data Differences
    DFAS Indianapolis reported different Army budget execution data to the
    Department of the Treasury than what was included on the Army financial
    statements. DFAS Indianapolis did not correct material differences between the
    Army budget execution data reported for the OMB SF 133 and Army Statement
    of Budgetary Resources and related footnotes. Table 2 shows a summary of the
    differences for five quarters ending December 31, 2005.

          Table 2. Sum of Differences Between OMB SF 133 and the Statements of
              Budgetary Resources and Related Footnote for AGF and AWCF
                                   (Amounts in Millions)
                              Army General Fund          Army Working Capital Fund
             Qtr              Net         Absolute1          Net       Absolute
     1st Qtr FY 2005       $(560,388.7)    $575,588.4      $(66,861.3)   $84,728.7
     2nd Qtr FY 2005             (20.2)       50,287.5          (70.0)      5,564.1
     3rd Qtr FY 2005             (19.4)       87,544.6           (1.7)     25,748.1
     4th Qtr FY 20052           (274.3)      115,904.0          (79.7)     33,724.7
     1st Qtr FY 2006              316.1        1,136.2          (31.5)     11,378.5
     1
       When computing absolute value, negative numbers are converted to positive before summation. An
      absolute value total provides an aggregate total that may more accurately reflect the amount of dollars
      involved than a “net” total, where negative and positive numbers cancel each other out and potentially
      understate the magnitude of the differences.
     2
       Appendix B shows how the differences were calculated by line for the fourth quarter FY 2005 AGF
      and AWCF.




                                                4
            The differences in the budget execution data reported on the OMB SF 133, Army
            SF 133, and Statement of Budgetary Resources were caused by the following.

                 •   OMB did not correctly post Army budget execution data.

                 •   DFAS Indianapolis did not report Army obligations using correct
                     apportionment categories. 2

                 •   DFAS Indianapolis made incorrect accounting adjustments to DDRS AFS
                     data used to prepare the Statement of Budgetary Resources and did not
                     post accounting adjustments to Army budget execution data provided to
                     the Department of the Treasury.

            Posted Amounts. OMB did not correctly post the first quarter FY 2005 Army
            budget execution data that DFAS Indianapolis submitted. The first quarter
            FY 2005 OMB SF 133 differed from the Army Statements of Budgetary
            Resources by $575,588.4 million absolute for the AGF and $84,728.7 million
            absolute for the AWCF. DFAS Indianapolis submitted AWCF budget execution
            data; however, the OMB SF 133 did not report any first quarter FY 2005
            amounts. In addition, OMB did not post all of the AGF budget execution data
            that DFAS Indianapolis submitted. For example, DFAS Indianapolis submitted
            amounts for the AGF FY 2004 and FY 2005 Operation and Maintenance
            appropriation (21-0405-2020). However, the OMB SF 133 did not report any
            first quarter FY 2005 amounts for 21-0405-2020. A DFAS Indianapolis
            reconciliation of the OMB SF 133 would have identified that the Army budget
            execution data that were submitted were incorrectly presented on the OMB
            SF 133. DFAS Indianapolis should notify the Department of the Treasury when
            the OMB SF 133 is not accurate.

            Apportionments. DFAS Indianapolis did not report AGF obligations on the
            Army SF 133 and on the AGF financial statement Note 20 using the same
            apportionment category codes as on the SF 132 for the Army. In addition, DFAS
            Indianapolis did not report AWCF obligations on the Army SF 133 and to the
            Department of the Treasury using the same apportionment category codes as on
            the SF 132 for the Army. The differences between the OMB SF 133 and the
            Army Statements of Budgetary Resources for the second quarter FY 2005 through
            the first quarter FY 2006 ranged from $1,136.2 million to $115,904.0 million for
            the AGF and $5,564.1 million to $33,724.7 million for the AWCF. AGF and
            AWCF differences for the second quarter FY 2005 through the first quarter
            FY 2006 primarily occurred in OMB SF 133 Segment 8, 3 Obligations Incurred.




2
    OMB uses apportionment categories to distribute budgetary resources by fiscal quarters; activities,
    projects, objects, or a combination of these categories; or to apportion funds into future fiscal years.
3
    Segment 8 refers to OMB SF 133 lines 8A1 - Category A, Direct; 8A2 - Category B, Direct; 8A3 -
    Category C, Exempt from Apportionment; 8B1 - Category A, Reimbursable; 8B2 - Category B,
    Reimbursable; and 8B3 - Category C, Exempt from Apportionment, Reimbursable.



                                                          5
Obligations submitted to FACTS II are summarized into the following categories
on the OMB SF 133:

       •   Direct, Category A;

       •   Direct, All Category B projects;

       •   Direct, Category C, exempt from apportionment;

       •   Reimbursable, Category A;

       •   Reimbursable, All Category B projects; and

       •   Reimbursable, Category C, exempt from apportionment.

Circular A-136 requires that similar information be presented as a financial
statement footnote disclosure. Table 3 identifies the fourth quarter FY 2005
Segment 8 amounts for the AGF and illustrates the inconsistency among the
Army budget execution data on the OMB SF 133, Army SF 133, and reported on
Note 20 of the fourth quarter FY 2005 AGF financial statements.

                  Table 3. Army General Fund Line 8 Amounts
                           for Fourth Quarter FY 2005
                               (Amounts in Millions)
           SF 133 Lines            OMB SF 133 Army SF 133                  4th Qtr
                                                                        FY 2005 AGF
                                                                          Note 20
8A1 - Category A, Direct
Obligations                              $135,366.1     $170,987.1        $174,100.0
8A2 - Category B, Direct
Obligations                                39,642.3           4,013.9          945.3
             Total                        175,008.4         175,001.0      175,045.3
8B1 - Category A, Reimbursable
Obligations                                   1,290.8        20,156.9       20,200.0
8B2 - Category B, Reimbursable
Obligations                                 23,214.2        4,345.7           4,300.0
             Total                        $ 24,505.0     $ 24,502.6        $ 24,500.0

Table 4 identifies the first quarter FY 2006 Segment 8 amounts for the AWCF
and illustrates the inconsistency among the Army budget execution data on the
OMB SF 133, Army SF 133, and reported on Note 20 of the first quarter FY 2006
AWCF financial statements.




                                    6
             Table 4. Army Working Capital Fund Line 8 Amounts for
                               1st Qtr FY 2006
                             (Amounts in Millions)
         SF 133 Lines               OMB SF 133         Army SF 133         1st Qtr
                                                                           FY 2006
                                                                         AWCF Note 20
8B1 - Category A,
Reimbursable Obligations                   $5,631.5
8B2 - Category B,
Reimbursable Obligations                                      $5,631.5           $3,700.0
8B3 - Category C, Exempt from
Apportionment, Reimbursable                                                       1,900.0
Obli i      Total                          $5,631.5           $5,631.5           $5,600.0

Although the obligations reported at the total direct and total reimbursable levels
for the AGF and the AWCF are somewhat consistent across the various reports,
obligations should be reported consistently on an apportionment category code
basis. OMB distributes budgetary resources on the SF 132 by apportionment
category codes. One of the main purposes of the Army SF 133 is to monitor the
use of funds apportioned on the SF 132 for the Army. Therefore, DFAS
Indianapolis should be reporting obligations incurred that are consistent with the
apportionment categories used on the SF 132 for the Army. DFAS Indianapolis,
the Army, and other users of the Army SF 133 are not able to adequately monitor
the use of funds apportioned when inconsistent category codes are used.

Journal Vouchers. DFAS Indianapolis made accounting adjustments to
DDRS AFS report data that created differences between the fourth quarter
FY 2005 and first quarter FY 2006 Army budget execution data on the OMB
SF 133 and the AGF and AWCF Statements of Budgetary Resources. The fourth
quarter FY 2005 AGF amount reported on the OMB SF 133 for line 14C,
Obligated Balance, End of Period, Undelivered Orders was $112.2 million more
than the amount reported on the AGF Statement of Budgetary Resources. The
fourth quarter FY 2005 AGF amount reported on the OMB SF 133 for line 14D,
Obligated Balance, End of Period, Accounts Payable was $187.5 million less than
the amount reported on the AGF Statement of Budgetary Resources. These
differences were caused by 15 journal vouchers prepared by DFAS Indianapolis.
DFAS Indianapolis incorrectly prepared 1 adjustment voucher and did not
post 14 adjustment vouchers to the budget execution data submitted to the
Department of the Treasury.

        Incorrect Journal Voucher. DFAS Indianapolis processed an
adjustment voucher as part of the preparation of the fourth quarter FY 2005 AGF
financial statements that debited the wrong general ledger account for
$75.3 million. This error caused $301.3 million in absolute value differences
between the Army budget execution data on the OMB SF 133 and the fourth
quarter FY 2005 AGF Statement of Budgetary Resources. DFAS Indianapolis
carried forward the incorrect ending balances from the fourth quarter FY 2005
AGF Statement of Budgetary Resources to the first quarter FY 2006 AGF


                                     7
    Statement of Budgetary Resources. Erroneous beginning balances then resulted
    in differences on other lines on the first quarter FY 2006 AGF Statement of
    Budgetary Resources. For example, the Unobligated Balance Brought Forward
    on October 1 line impacted the Total Budgetary Resources line. The erroneous
    journal voucher created $572.1 million in absolute value differences that affected
    eight lines on the first quarter FY 2006 AGF Statement of Budgetary Resources.
    DFAS Indianapolis personnel stated that they expected the differences caused by
    the incorrect journal voucher to affect future quarters.

            Journal Voucher Posting. Even if DFAS Indianapolis had posted this
    journal voucher correctly during the fourth quarter FY 2005, the amount on OMB
    SF 133 line 14C, Obligated Balance, End of Period, Undelivered Orders would
    have been $187.5 million more than the fourth quarter FY 2005 AGF Statement
    of Budgetary Resources. In addition, the amount on OMB SF 133 line 14D,
    Obligated Balance, End of Period, Accounts Payable would have been
    $187.5 million less than the fourth quarter FY 2005 AGF Statement of Budgetary
    Resources. DFAS Indianapolis caused these differences by processing 14 journal
    vouchers while preparing the AGF Statement of Budgetary Resources. These
    journal vouchers include adjustments based on data call information received by
    DFAS Indianapolis to record transactions that are not recorded accurately in
    Army accounting systems. DFAS Indianapolis posted these journal vouchers to
    the AGF Statement of Budgetary Resources, but did not process a corresponding
    adjustment to the Army budget execution data submitted to FACTS II. In
    addition, DFAS Indianapolis did not adjust the Army budget execution data
    reported on the Army SF 133 to reflect the journal voucher adjustments. DFAS
    Indianapolis also makes adjustments of this type as part of the preparation of the
    AWCF Statement of Budgetary Resources, without making corresponding
    adjustments to the FACTS II submission or to the Army SF 133.

    DFAS Indianapolis should include accounting adjustments made to DDRS AFS
    report data in the data submitted to the Department of the Treasury and on the
    Army SF 133. Otherwise, the Army Statements of Budgetary Resources will not
    be consistent with the Army budget execution data provided to the Department of
    the Treasury and with the Army SF 133.


Budget Execution Data Reconciliation
    DFAS Indianapolis did not identify and correct the errors that caused these
    differences because it did not perform an effective reconciliation among the
    FACTS II data, Army SF 133, and the Army Statements of Budgetary Resources.
    DFAS Indianapolis did not have adequate written procedures for the
    reconciliation of budget execution data. Written procedures are necessary so
    differences can be identified and corrected. Specifically, DFAS Indianapolis did
    not fully execute the reconciliation processes contained in the DDRS AFS and the
    Just the Facts System.

    DDRS Audited Financial Statements Module. The DDRS AFS contains a
    reconciliation process that can be used to identify differences between the Army
    SF 133 and the Army Statements of Budgetary Resources. DFAS financial
    statement preparation guidance required DFAS Indianapolis to complete the
    reconciliation and explain all differences between the Army SF 133 and the Army


                                         8
Statements of Budgetary Resources. The fourth quarter FY 2005 DDRS AFS
reconciliation for the AGF included 25 comparisons between the Army SF 133
and the Statement of Budgetary Resources. The reconciliation identified
differences for 16 of the 25 comparisons. DFAS Indianapolis included
explanations on the reconciliation for 9 of the 16 differences that identified that
the variance was still being researched. However, differences in Army budget
execution data should be identified, researched, and corrected prior to the
publication of the Statement of Budgetary Resources. Incomplete and untimely
reconciliations lead to one quarter’s erroneous ending balances being perpetuated
as erroneous beginning balances in the next quarter, as discussed in the section on
journal vouchers.

In addition, the reconciliation in DDRS AFS was only between the budget
execution data reported on the Army SF 133 and the Army Statement of
Budgetary Resources. The reconciliation did not include the data in the financial
statement footnote related to the Statement of Budgetary Resources, actually
submitted for the Army through FACTS II, or appearing on the OMB SF 133.
Although the fourth quarter FY 2005 DDRS AFS reconciliation had three
separate comparisons involving SF 133 Segment 8, none of the reconciliations
compared the obligated amounts by apportionment category code in the Army
SF 133 to the obligations by apportionment category code reported in Note 20 of
the financial statements. The reconciliation performed by DFAS Indianapolis
should include the Army budget execution data actually submitted to the
Department of the Treasury, as this data can differ from the amounts reported on
the Army SF 133. A proper reconciliation should also include the Army budget
execution data on the OMB SF 133 to verify that the amounts reported on the
OMB SF 133 match what DFAS Indianapolis submitted through FACTS II and
what was reported on the Army SF 133 and on the Army Statements of Budgetary
Resources and related footnote.

Just the Facts System. DFAS Indianapolis’s budget execution data
reconciliation procedures also included a reconciliation contained in the Just the
Facts System, an automated system used to prepare the Army FACTS II
submission. DFAS Indianapolis used this reconciliation to compare the Army
SF 133 budget execution data to intermediate Army budget execution data used as
part of the computation of the FACTS II submission. Because the comparison
used intermediate Army budget execution data prior to its conversion based on
the Master Account File (MAF), the reconciliation did not accurately identify the
differences that existed between the Army SF 133 and the Army budget execution
data actually submitted to the Department of the Treasury. For example, the
fourth quarter FY 2005 reconciliation of line 08A-Category A, Direct Obligations
for the AGF FY 2005 and FY 2006 Research, Development, Test, and Evaluation
appropriation (21-0506-2040) shows identical amounts and no differences
between the Army SF 133 and the FACTS II budget execution data. However,
the Army SF 133 reported obligations against Category A, but the FACTS II
submission actually reported obligations against Category B. In addition, the Just
the Facts reconciliation for obligations incurred against reimbursable authority
used a single 08D - Reimbursable Obligations line, regardless of apportionment
category code. A proper reconciliation would include a comparison to the actual
Army budget execution data submitted through FACTS II. The reconciliation
would also include a comparison of obligations incurred at the apportionment




                                     9
      category code level. Obligations are presented at that level on the Army SF 133,
      the OMB SF 133, and in the footnote related to the Statement of Budgetary
      Resources.


Difference Effects
      Because DFAS Indianapolis did not identify and correct material differences that
      existed between different budget execution reports, it used one set of budget
      execution data to manage Army funds, but provided the Department of the
      Treasury a different set of budget execution data for OMB’s use. In addition,
      DFAS Indianapolis reported inaccurate, misleading budget execution data on the
      Army SF 133, Army Statements of Budgetary Resources and related footnote, and
      to the Department of the Treasury for the OMB SF 133. Consistent accurate
      reporting of Army budget execution data is necessary in order to be able to
      adequately monitor the status of Army funds.
      Inaccurate budget execution data increases the potential for Antideficiency Act
      violations. Section 1517, title 31, United States Code (31 U.S.C. 1517) states that
      (a) An officer or employee of the United States Government or of the District of
      Columbia Government may not make or authorize an expenditure or obligation
      exceeding an apportionment. Obligating funds against unfunded apportionment
      categories on the SF 132 can cause Antideficiency Act violations. In order to
      avoid the possibility of an Antideficiency Act violation, DFAS Indianapolis
      should record and report obligations on the Army SF 133, the financial
      statements, and to the Department of the Treasury in a manner consistent with the
      apportionment categories used on the SF 132 for the Army.

      If effective reconciliation procedures between budget execution reports are not
      implemented, DFAS Indianapolis risks perpetuating material differences in
      DDRS Budgetary. Although DDRS Budgetary will modify the process by which
      DFAS Indianapolis compiles and reports Army budget execution data, the
      requirement to report Army budget execution data consistently and accurately on
      the Army SF 133, to the Department of the Treasury, and on the Army Statement
      of Budgetary Resources will remain. If DFAS Indianapolis procedures to
      reconcile Army budget execution data are not improved, inaccurate and
      misleading budget execution data reported on the Statement of Budgetary
      Resources could make the AGF financial statements unable to earn an unqualified
      audit opinion. If the differences cannot be reconciled and corrected, material
      differences should be disclosed in the footnotes to the Army financial statements.


Recommendations and Management Comments
1. We recommend that the Director of the Defense Finance and Accounting Service
Center Indianapolis develop and execute standard operating procedures to:

       a. Record and report obligations incurred against category codes that are
consistent with the apportionment category codes used on the Apportionment and
Reapportionment Schedule (SF 132).



                                          10
       b. Adjust the amounts submitted to the Department of the Treasury and
reported on the Army Report on Budget Execution and Budgetary Resources
(SF 133) to reflect adjustments done to budget execution data as part of the
compilation of the Army Statements of Budgetary Resources.

      c. Perform a quarterly reconciliation among the amounts reported on the
Army Report on Budget Execution and Budgetary Resources (SF 133), submitted
through FACTS II for the Army, reported on the Office of Management and Budget
Report on Budget Execution and Budgetary Resources (SF 133), and reported on
the Army Statements of Budgetary Resources and related footnotes.

      d. Notify the Department of the Treasury when amounts on the Office of
Management and Budget Report on Budget Execution and Budgetary Resources
(SF 133) are not accurate.

Management Comments. The Director of DFAS Indianapolis responded to the draft
report and stated that the DoD Office of Inspector General’s findings and
recommendations for Army have an impact on the entire DoD network. The Director
stated that the concurrence and implementation of these recommendations will be
dependent on the analysis and discussion performed by all DoD entities. The Director
also stated that once that decision has been finalized, their complete position will be
presented to the DoD Office of Inspector General. December 31, 2006 was identified by
the Director as the estimated completion date.

Audit Response. The comments provided by the Director of DFAS Indianapolis were
nonresponsive and did not comply with DoD Directive 7650.3. Management comments
should indicate concurrence or nonconcurrence with the finding and each applicable
recommendation. However, we will accept additional comments from the Director no
later than December 31, 2006.

2. We recommend that the Assistant Secretary of the Army (Financial Management
and Comptroller) disclose the existence of material unreconciled differences in
budget execution data as part of the footnote disclosures to the Army financial
statements.

Management Comments. The Assistant Secretary of the Army (Financial Management
and Comptroller) concurred and stated that the Financial Reporting Directorate will
coordinate with DFAS Indianapolis to disclose the existence of material unreconciled
differences in budget execution data as part of Army’s footnote to the Army financial
statements. In addition, they will include actions to address these issues in the “Internal
Controls over Financial Reporting” (OMB Circular A-123, Appendix A) documentation
and the “CFO Strategic Plan.” These actions are targeted to be completed by first quarter
2007.




                                            11
Appendix A. Scope and Methodology
    We reviewed the DFAS Indianapolis processes for the preparation of Army
    managerial and budget execution reports, including the operating procedures for
    detecting, researching, and correcting differences between budget execution
    reports. Our review included reports compiled during FY 2005 and first quarter
    FY 2006. We reviewed amounts on the Army SF 133, Army Statements of
    Budgetary Resources and related footnote, Army FACTS II submission, and
    OMB SF 133. We compared the amounts reported on the Army budget execution
    reports to the requirements found in OMB Circular No. A-136, “Financial
    Reporting Requirements,” August 23, 2005. We also interviewed personnel
    responsible for processing budget execution data and preparing managerial
    reports and financial statements.

    We performed the audit from November 2005 through June 2006 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We used reports generated by accounting
    systems within DFAS Indianapolis and DFAS field accounting activities to
    perform this audit. We did not test the reliability of the data in accounting
    systems used by DFAS Indianapolis and DFAS field accounting activities to
    prepare the Army budget execution reports. Our review of DFAS Indianapolis
    controls over the preparation of budget execution reports shows that the
    accounting data used to prepare the reports were unreliable. However, the lack of
    reliable budget execution information did not affect our analysis.
    Recommendation 1 in this report, if implemented, will improve the reliability of
    the data.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Defense Financial Management high-risk area.


Prior Coverage
    We did not identify any reports issued during the last 5 years that addressed
    budget execution reporting.




                                        12
Appendix B. Fourth Quarter FY 2005 AGF and
            AWCF Differences

Army General Fund
    The following table identifies the lines that contained differences between the
    fourth quarter FY 2005 AGF budget execution data on the OMB SF 133 and the
    AGF Statement of Budgetary Resources. In some cases, the budget execution
    data were reported on the Statement of Budgetary Resources with less detail than
    was used on the OMB SF 133. For example, the OMB SF 133 reports amounts
    for line 6A, Cancellations of Expired and No-year Accounts, and line 6B, Enacted
    Reductions; whereas the Statement of Budgetary Resources reports a single
    Permanently Not Available line.

    The most significant differences occurred in Segment 8, Obligations Incurred.
    DFAS Indianapolis did not report AGF obligations incurred on the Army SF 133
    and on the AGF financial statement Note 20 using the same apportionment
    category codes as were used on the SF 132 for the Army. For example, the
    FY 2005 SF 132 for the AGF FY 2005 Operation and Maintenance appropriation
    (21-05-2020) identifies the apportionment of Category B Reimbursable amounts.
    DFAS Indianapolis reported obligations incurred against Category A
    Reimbursable apportionments on the Army SF 133 for the period ending
    September 30, 2005, and used Category A Reimbursable apportionments for
    fourth quarter FY 2005 financial statement reporting purposes. The Department
    of the Treasury provides DFAS Indianapolis with a MAF containing the TAFS
    that it expects to be reported through FACTS II. The MAF file includes the
    expected Apportionment Category Codes for those TAFS. The MAF file
    identifies Category B Reimbursable for the AGF FY 2005 Operation and
    Maintenance appropriation (21-05-2020). DFAS Indianapolis used the MAF file
    to convert the obligations incurred for the AGF FY 2005 Operation and
    Maintenance appropriation (21-05-2020) from the Category A Reimbursable
    amounts used on the Army SF 133 and financial statements to Category B
    Reimbursable amounts for reporting to the Department of the Treasury. The
    OMB SF 133 then presented the obligations as Category B. This resulted in the
    OMB SF 133 presenting obligations consistent with apportionment category
    codes on the SF 132 for the Army, but the Army SF 133 and Note 20 of the AGF
    financial statements reporting obligations that were not consistent with the SF 132
    for the Army.




                                        13
 Differences Between OMB SF 133 and Fourth Quarter FY 2005 AGF Statement of Budgetary
                            Resources and Related Footnote
                                 (Amounts in Thousands)

 SF 133      SF 133 Line Title       Amount       Amount from       Net           Absolute
Line No.                           from OMB        AGF SBR       Difference       Difference
                                     SF 133
1A           Appropriation         $149,846,917   $149,846,916   $            1   $            1
2A           Unobligated             22,878,054     22,882,181          (4,127)            4,127
             Balance, Brought
             Forward October 1
3A1          Offsetting              20,948,338     20,948,339              (1)                1
             Collections,
             Earned, Collected
3A2          Offsetting               (415,100)      (415,099)              (1)                1
             Collections,
             Earned, Receivable
             From Federal
             Sources
3B1          Change in Unfilled          77,737         77,733                4                4
             Customer Orders,
             Advance Received
3X           Orders\                 22,770,914     22,770,912                2                2
             Receivables\
             Collections
             Subtotal
4A           Recoveries of Prior     17,033,440     17,033,447              (7)                7
             Year Obligations,
             Actual
6A           Cancellations of         (555,080)      (877,523)              (4)                4
             Expired and No-
             year Accounts
6B           Enacted                  (322,447)
             Reductions
7            Total Budgetary        215,067,569    215,071,692          (4,123)            4,123
             Resources
8A1          Category A, Direct     135,366,105    174,100,000   (38,733,895)         38,733,895
             Obligations
8A2          Category B, Direct      39,642,275        945,300       38,696,975       38,696,975
             Obligations
Direct Obligations Subtotal         175,008,380    175,086,215         (77,835)          77,835
included on the Statement of
Budgetary Resources, but not on
OMB SF 133
8B1          Category A,              1,290,847     20,200,000   (18,909,153)         18,909,153
             Reimbursable
             Obligations
8B2          Category B,             23,214,213      4,300,000       18,914,213       18,914,213
             Reimbursable
             Obligations



                                          14
 Differences Between OMB SF 133 and Fourth Quarter FY 2005 AGF Statement of Budgetary
                            Resources and Related Footnote
                                 (Amounts in Thousands)

 SF 133       SF 133 Line Title       Amount       Amount from       Net         Absolute
Line No.                            from OMB        AGF SBR       Difference     Difference
                                      SF 133
Reimbursable Obligations             24,505,060      24,506,660        (1,600)         1,600
Subtotal included on Statement
of Budgetary Resources, but not
on OMB SF 133
8X            Obligations           199,513,440     199,592,875       (79,435)        79,435
              Subtotal
9A1           Unobligated            13,752,742
              Balance,
              Apportioned,
              Currently
              Available
9A2           Unobligated                      0
              Balance,                               13,666,977        85,765         85,765
              Apportioned,
              Subsequent Periods
9A3           Unobligated                      0
              Balance,
              Apportioned,
              Anticipated
9B            Unobligated                      0        11,980        (11,980)        11,980
              Balance, Exempt
              From
              Apportionment
9C            Unobligated                      0             2             (2)                2
              Balance, Other
              Available
10A           Unobligated                      0
              Balance, Not
              Available,
              Apportioned for
              Subsequent Periods
10B           Unobligated                      0
              Balance, Not
                                                      1,799,858         1,523          1,523
              Available,
              Deferred
10C           Unobligated             1,801,381
              Balance, Not
              Available,
              Withheld Pending
              Rescission
11            Total Status of       215,067,569     215,071,692        (4,123)         4,123
              Budgetary
              Resources
12            Obligated Balance,     57,026,514      57,022,399         4,115          4,115
              Net as of October 1



                                          15
     Differences Between OMB SF 133 and Fourth Quarter FY 2005 AGF Statement of Budgetary
                                Resources and Related Footnote
                                     (Amounts in Thousands)

     SF 133    SF 133 Line Title      Amount       Amount from        Net           Absolute
    Line No.                        from OMB        AGF SBR        Difference       Difference
                                      SF 133
    14A        Obligated Balance,    (1,478,347)     (1,478,349)                2                2
               End of Period,
               Accounts
               Receivable
    14B        Obligated Balance,   (14,873,105)    (14,873,109)                4                4
               End of Period,
               Unfilled Customer
               Orders, Federal
               Sources
    14C        Obligated Balance,    66,884,491      66,772,263         112,228         112,228
               End of Period,
               Undelivered
               Orders
    14D        Obligated Balance,    13,761,077      13,948,617        (187,540)        187,540
               End of Period,
               Accounts Payable
    14X        Obligated Balance     64,294,116      64,369,422         (75,306)          75,306
               Subtotal
    15A        Disbursements         173,467,567    173,467,566                1               1
    15B        Collections          (21,026,079)    (21,026,072)             (7)               7
    15X        Net Outlays          152,441,488     152,441,494              (6)               6
    Total                                                          $   (274,312)    $115,903,978




Army Working Capital Fund
    The AWCF also had large Segment 8 differences for the second quarter FY 2005
    through the first quarter FY 2006 that were due to DFAS Indianapolis not
    reporting obligations consistent with the apportionment category codes on the
    SF 132 for the Army. For example, DFAS Indianapolis submitted first quarter
    FY 2006 AWCF obligations through FACTS II for the OMB SF 133 using
    Category A, but reported obligations using Category B on the Army SF 133 and
    Categories B and C on Note 20 of the first quarter FY 2006 AWCF financial
    statements. Based on the SF 132 for the AWCF and the AWCF Approved
    Operating Budget document issued by the Office of the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer, the correct presentation of the
    obligations used Categories B and C as they appeared in Note 20 of the AWCF
    financial statements. DFAS Indianapolis did not correctly report AWCF
    obligations on the Army SF 133 and to the Department of the Treasury for the
    OMB SF 133. The apportionment categories used did not align to the SF 132 for
    the AWCF.




                                          16
Differences Between OMB SF 133 and Fourth Quarter FY 2005 AWCF Statement of Budgetary
                            Resources and Related Footnote
                                (Amounts in Thousands)

 SF 133    SF 133 Line Title     Amount from     Amount from        Net            Absolute
Line No.                         OMB SF 133      AWCF SBR        Difference        Difference

1C         Contract Authority    $ 10,951,904    $ 10,951,904    $            0    $           0
2A         Unobligated              1,529,786       1,530,242             (456)              456
           Balance, Brought
           Forward October 1
2B         Unobligated              (515,944)       (515,944)                 0                 0
           Balance, Net
           Transfers, Actual
3A1        Offsetting              14,180,280      14,180,280                 0                 0
           Collections,
           Earned, Collected
3A2        Offsetting                (29,369)        (29,369)                 0                 0
           Collections,
           Earned, Receivable
           From Federal
           Sources
3B1        Change in Unfilled          19,271          19,271                 0                 0
           Customer Orders,
           Advance Received
3B2        Change in Unfilled       (774,164)       (774,190)                26               26
           Customer Orders,
           Without Advance
3X         Orders\                 13,396,018      13,395,992                26               26
           Receivables\
           Collections
           Subtotal
4A         Recoveries of Prior      1,435,592       1,435,592                 0                 0
           Year Obligations,
           Actual
6A         Cancellations of        (8,798,841)
           Expired and No-
           year Accounts                           (8,798,841)                0                 0
6B         Enacted                           0
           Reductions
7          Total Budgetary         17,998,515      17,998,945             (430)              430
           Resources
8B1        Category A,             16,822,012               0        16,822,012        16,822,012
           Reimbursable
           Obligations
8B2        Category B,                       0     11,900,000    (11,900,000)          11,900,000
           Reimbursable
           Obligations
8B3        Exempt from                       0      5,000,000        (5,000,000)        5,000,000
           Apportionment,
           Reimbursable
           Obligations



                                        17
Differences Between OMB SF 133 and Fourth Quarter FY 2005 AWCF Statement of Budgetary
                            Resources and Related Footnote
                                (Amounts in Thousands)

 SF 133       SF 133 Line Title     Amount from     Amount from        Net           Absolute
Line No.                            OMB SF 133      AWCF SBR        Difference       Difference

Reimbursable Obligations              16,822,012      16,822,445          (433)              433
Subtotal included on Statement
of Budgetary Resources, but not
on OMB SF 133
8X            Obligations             16,822,012      16,822,445          (433)              433
              Subtotal
9A1           Unobligated              1,176,502
              Balance,
              Apportioned,
              Currently
              Available
9A2           Unobligated                       0
              Balance,                                 1,176,499                 3                3
              Apportioned,
              Subsequent Periods
9A3           Unobligated                       0
              Balance,
              Apportioned,
              Anticipated
9C            Unobligated                       0              1            (1)                   1
              Balance, Other
              Available
11            Total Status of         17,998,515      17,998,945          (430)              430
              Budgetary
              Resources
12            Obligated Balance,       3,968,535       3,968,080            455              455
              Net as of October 1
14A           Obligated Balance,       (433,233)       (433,233)                 0                0
              End of Period,
              Accounts
              Receivable
14B           Obligated Balance,      (3,748,523)     (3,748,523)                0                0
              End of Period,
              Unfilled Customer
              Orders, Federal
              Sources
14C           Obligated Balance,       9,775,648       9,775,648                 0                0
              End of Period,
              Undelivered
              Orders
14D           Obligated Balance,         555,858         555,861            (3)                   3
              End of Period,
              Accounts Payable
14X           Obligated Balance        6,149,750       6,149,753            (3)                   3
              Subtotal



                                           18
Differences Between OMB SF 133 and Fourth Quarter FY 2005 AWCF Statement of Budgetary
                            Resources and Related Footnote
                                (Amounts in Thousands)

 SF 133    SF 133 Line Title   Amount from     Amount from        Net         Absolute
Line No.                       OMB SF 133      AWCF SBR        Difference     Difference

15A        Disbursements          14,008,740      14,008,740              0              0
15B        Collections          (14,199,551)    (14,199,551)              0              0
15X        Net Outlays             (190,811)       (190,811)              0              0
Total                                                          $   (79,667)   $ 33,724,711




                                      19
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        21
Department of the Army Comments




                    23
Defense Finance and Accounting Service Center
Indianapolis Comments




                      24
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing, Defense Financial
Auditing Service prepared this report. Personnel of the Department of Defense Office of Inspector
General who contributed to the report are listed below.

Paul J. Granetto
Patricia A. Marsh
Jack L. Armstrong
Paul C. Wenzel
Leslie M. Barnes
Andrew D. Gum
E. Ellen Kleiman
Joseph A. Baer
